GR-70-98-022
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
Office of Justice Programs
Fiscal Year 1996 Evaluation of Boot Camps 
on Confinement Populations to the ABT Associates Incorporated
Grant Number 96-SC-VX-0005
GR-70-98-022
 
September 24, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 96-SC-VX-0005, awarded by the U.S. Department of Justice (DOJ) Office of Justice
Programs (OJP) to Abt Associates. Abt Associates received a grant of $274,996 to conduct a
multi-site evaluation of correctional boot camps to determine the impact of boot camps on
confinement populations. The grant project period was September 1, 1996 to August 31,
1998. A program extension was approved through March 31, 1999. As of July 30, 1998, the
grantee had expended $181,440 in grant funds.
Our audit concentrated on, but was not limited to, the period September 1, 1996 through
August 26, 1998. We tested the accuracy and reliability of Abt Associates' accounting
system, reviewed the general ledger, and determined if costs charged to the grant were
allowable, allocable, and reasonable. For the purposes of this review, we used: the Federal
Acquisition Regulation and the OJP Financial Guide for the administration of
grants.

Based on our audit, we found that Abt Associates properly managed the grant.



The grant objectives outlined in the application were being achieved. 

Financial Status Reports were submitted as required by the grant.


However, we found that Abt Associates charged $1,591 in unallowable personnel and
travel costs to the grant. This item is discussed in the Findings and Recommendations
Section of the report. Our Scope and Methodology Section appear in Appendix II.
#####